2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

: E-Mail Address:
L ega 1 B ric fs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1075
JOHN ROBERT REICHARD
and ERICKA RAE REICHARD,
Petitioners,
Vv.
RUSSELL BROWN, Chapter 13 Trustee,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR RESPONDENT
RUSSELL BROWN IN OPPOSITION in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 4020 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of March, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
f RENEE J. GOSS Konee. 9. Pane Qudcaw- &. Chie

My Comm. Exp. September 5, 2023
Notary Public Affiant 40709

 
